9/10/2021

Terms and Conditions – Best Egg Credit Card

Credit Card Agreement for Best Egg VISA®
Accounts
DISCLOSURE SUMMARY

There are two parts to this Credit Card Agreement: The Best Egg Disclosure Summary and the Best Egg Cardmember
Agreement. The Disclosure Summary shows a table of applicable rates and fees as of December 1, 2020. The
Cardmember Agreement contains important information related to Visa consumer credit cards issued by Best Egg. All
terms, including fees and APRs for new transactions, are not guaranteed and may change in accordance with the
Cardmember Agreement and applicable law based on information in your credit report, market conditions, business
strategies, or for any other reason. Please review these terms so you are fully informed about this credit card offer.

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR)
for Purchases

APR for Cash Advances

How to Avoid Paying Interest
h

https://www.besteggcard.com/terms-and-conditions/

24.99%
This is a variable APR based on the Prime Rate + 21.74%.

24.99%
This is a variable APR based on the Prime Rate + 21.74%.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if
you pay your entire balance by the due date each month. We will begin charging interest on cash advances on the
1/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

on Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau

you pay you e t e ba a ce by t e due date eac

o t .

e

beg

c a g g

te est o cas ad a ces o t e

transaction date.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer
Financial Protection Bureau

FEES
Annual Membership Fee

None

Application Fee

None

Transaction Fees

Balance Transfers
Foreign Transaction
Cash Advance

None
None
Either $10 or 5% of the amount of each cash advance, whichever is greater.

Penalty Fees

Overlimit
Late Payment
Returned Payment

None
Up to $39.
Up to $39.

How we calculate your balance
We use a method called Average Daily Balance (including new purchases), as more fully explained in the Interest Charges
section of your Cardmember Agreement.
https://www.besteggcard.com/terms-and-conditions/

2/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

Cash Advance
5% of the cash advance transaction (including fees charged by the ATM operator, if any), with a minimum of $10. We will
add this fee to the Cash Advance balance. We will begin charging interest on cash advances on the transaction date.

Penalty Fees
Up to $39. A single violation of each type will not exceed $29. However, if another violation of the same type occurs
within the next six billing cycles, we will charge $39. The Late Payment and Return Payment fees will not exceed the
related minimum payment that was due.

Minimum Payment
We will calculate the minimum payment as: (1) any past due amounts; PLUS (2) the larger of: (a) $29 (or total amount you
owe if less than $29); or (b) the sum of: (i) 1% of the new balance, PLUS (ii) any periodic interest charges and late fees we
have billed you on the statement for which your minimum payment is calculated.

Variable Rates
Variable APRs may increase or decrease each month if the Prime Rate changes. We calculate variable APRs by adding a
Margin to the Prime Rate index. Any new rate will be applied as of the first day of your billing cycle during which the
Prime Rate has changed. If the APR increases, you will pay a higher interest charge and may pay a higher minimum
payment. The Prime Rate is simply a reference index and is not the lowest interest rate available.

Billing Rights
Information on your right to dispute transactions and how to exercise those rights is provided in your Cardmember
Agreement.

TERMS & CONDITIONS
You have read the accompanying application, and you affirm that everything you have stated is true and complete You
are of legal age to enter into a contract in the state in which you reside. Currently Best Egg Credit Cards are not available
in the following locations: WV, IA, VT, and Washington, D.C. You authorize FB&T/Best Egg Credit Card (hereinafter “we”,
https://www.besteggcard.com/terms-and-conditions/

3/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

“us” or “our”) to obtain your credit report(s), employment history and any other information in order to approve or
decline this application, service your account, and manage our relationship with you. Upon request, we will tell you the
name and address of any consumer reporting agency that provided such report(s) to us. You authorize us to share with
others, in accordance with our privacy notice, such information and our credit experience with you. In addition, you may,
as a customer, later indicate a preference to exempt your account from some of the information-sharing with other
companies (“opt-out”). If you accept or use an account, you do so subject to the terms of this application, this Disclosure
Summary, and the Cardmember Agreement, as it may be amended; you also agree to pay all charges incurred under
such terms. Any changes you make to the terms of this application will have no effect. You accept that on a periodic
basis your account may be considered for an automatic upgrade at our discretion. You consent to and authorize us, any
of our affiliates, or our marketing associates to monitor and/or record any of your phone conversations with any of our
representatives. You further consent to our use of automatic dialers, text, or prerecorded messages for servicing your
account even if the telephone number is a mobile telephone number for which the called party is charged. If additional
development is necessary based on the application information provided, we will make every attempt to contact you.
The information in this offer is accurate as of December 1, 2020, and is subject to change without notice.

PRESCREEN & OPT-OUT NOTICE
This “prescreened” offer of credit is based on information in your credit report indicating that you meet certain
criteria. This offer is not guaranteed if you do not meet our criteria. If you do not want to receive prescreen offers of
credit from this and other companies, call the consumer reporting agencies toll-free at 888-5-OPTOUT (888-5678688) or write to any of the following reporting agencies: Experian Opt Out, P.O. Box 919, Allen, TX 75013; Equifax,
Inc. Options, P.O. Box 740123, Atlanta, GA 30374-0123; or Transunion, P.O. Box 505, Woodlyn, PA 19094.

BEST EGG VISA CARDMEMBER AGREEMENT

https://www.besteggcard.com/terms-and-conditions/

4/23

9/10/2021

BEST EGG VISA CARDMEMBER AGREEMENT
Terms and Conditions – Best Egg Credit Card

THIS INFORMATION IS ACCURATE AS OF DECEMBER 1, 2020
This credit card program is issued and administered by First Bank & Trust. Visa is a registered trademark of Visa
International Service Association and is used by the issuer pursuant to a license from Visa U.S.A. Inc. Best Egg Credit
Card™ is a pending trademark of Marlette Technologies, LLC. This Cardmember Agreement contains important
information related to the Best Egg Credit Card issued by FB&T and serviced by Best Egg®. Best Egg is a registered
trademark of Marlette Funding, LLC and refers collectively to Marlette Funding. LLC, its affiliates and the Best Egg Credit
Card, as appropriate.
This Cardmember Agreement contains important information related to the Best Egg Credit Card issued by FB&T and
serviced by Best Egg.

ACCEPTANCE OF AGREEMENT
Information You Provide To Us
This Cardmember Agreement (Agreement), along with the Disclosure Summary enclosed with your credit card,
constitutes a contract between you, the cardmember, and Best Egg. Please review it carefully and keep it for your
records. If you have any questions, please call us using the number on the back of your card. This Agreement takes
effect once you or an Authorized User use your Card. Even if you do not use your Card, this Agreement will take effect
unless you contact us to cancel your Account within 30 days after we sent you this Agreement. You may still reject this
Agreement if you have not yet used your Card or made a payment on the Account after receiving a billing statement. If
you do reject this Agreement, you are not responsible for any fees or charges. You may also reject the “Arbitration
Agreement” as explained in that section. If any fee in the Disclosure Summary is marked “None,” the section of this
Agreement that relates to that fee does not apply. To help prevent unauthorized use of your Card, please sign the back
of your Card.
h
d
https://www.besteggcard.com/terms-and-conditions/

f

h

h h

l df

h

d

h

h h

5/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

In this Agreement, you and your refer to each person who has applied for the Account and any other person who has
agreed to be responsible for the Account. We, us and our refer to FB&T, Best Egg, and their collective agents, successors
®

or assigns and service providers. Card refers to each Visa Card that is issued by us on your Account.
Amendments: We reserve the right to amend this Agreement at any time, subject to applicable law. We have the right to
add, modify or delete any benefit, service, or feature of your Account at our discretion. We may do this in response to
the business, legal or competitive environment. This written Agreement is a final expression of the agreement governing
the Account. The written Agreement may not be contradicted by any alleged oral agreement. We may add new terms or
delete terms. If required by law, we will give you advance written notice of the change(s) and a right to reject the
change(s). We will not charge any fee or interest charge prohibited by law.

USING YOUR ACCOUNT
Promise to Pay
You promise to pay all charges, including charges you make, even if you do not present your Card or sign for the
transaction, charges that other people make if you let them use your Account, and charges that Additional
Cardmembers make or permit others to make.

Permitted Uses
You may use this Account for personal, family or household purposes. You may not use your account for business,
commercial or illegal purposes, such as Internet gambling. You must pay us for any damages and/or expenses resulting
from that use. In addition, we may also close your Account.

Authorized Users
You may request additional Cards for Authorized Users. You are responsible for any use of your Account by an
Authorized User or anyone else that you permit to use your Account. You must notify us if you wish to cancel the
authority of an Authorized User to use your Account. If we remove an Authorized User, in some cases we may close your
Account, open a new Account, and issue you a new Card.
https://www.besteggcard.com/terms-and-conditions/

6/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

Account Information Rights for Authorized Users
You allow us to discuss your Account with an Authorized User. This includes giving him or her access to your Account
information and history. You also agree that an Authorized User may use and receive information about the Account the
same way you do.

Credit Limit
We assign a credit limit to your Account; we may refer to credit limit as credit access line or credit line. Part of this credit
limit may be available for Cash Advances, and there may be a limit on the amount of Cash Advances you can take in each
period. You are responsible for balances on your Account up to the amount of your credit limit, subject to your Available
Credit. You may use your Account to make Cash Advances up to the amount of your Cash Access Limit. Your Cash Access
Limit is the portion of your overall Credit Limit which we make available from time to time for Cash Advances. Your
Credit Limit and Cash Advance Limit are provided to you with your Card and on every monthly statement. We may
cancel, change, or restrict your credit availability at any time. Each transaction is considered for approval on an individual
basis, including those above the credit limit. We may not authorize a transaction for security or other reasons. We will
not be liable to you if we decline to authorize a transaction or if anyone refuses your Card or Account number.

MAKING PAYMENTS
Payment Instructions
You must follow the payment instructions on your billing statement. Please make payments in U.S. dollars with a check,
money order, or electronic payment drawn on funds on deposit in the U.S. You must pay us for all amounts due on your
Account. This includes charges made by Authorized Users. If you make your payment in accordance with the instructions
on your billing statement by the date and time payments are due, we will credit your payment to your Account as of the
same day we receive it, as long as we receive it by the time disclosed in your billing statement. Payments received after
the required time will be credited on the next business day. If your payment does not meet the requirements set forth in
your billing statement, there may be a delay in processing and crediting your Account. This may result in late fees and
https://www.besteggcard.com/terms-and-conditions/

7/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

additional interest charges. If we process a late payment, a partial payment or a payment marked with any restrictive
language that will have no effect on our rights and will not change this Agreement. We may refuse to accept a payment
in a foreign currency. If we do accept it, we will charge your Account our cost to convert it to U.S. dollars. You may not
use a postdated check to make a payment. If you do postdate a payment check, we may elect to honor it upon
presentment or return it uncredited to the person that presented it, without in either case waiting for the date shown on
the check. We are not liable to you for any loss or expense arising out of the action we elect to take.

Minimum Payment

You agree to pay at least the Minimum Payment when due. We will calculate your Minimum Payment based on the
method described in the Disclosure Summary. The Minimum Payment will appear on your monthly statement and may
include any past due amounts. The Minimum Payment Due may also include amounts by which you exceed your
Account credit line. It will never exceed the New Balance.

Payment Allocation
We apply payments to balances as they appear on your monthly statement before being applied to new transactions. An
example of a new transaction is a recent purchase you made that has not yet been included in the New Balance as
shown on your statement. If your account has balances with different interest rates, we will allocate your payment equal
to the Minimum Payment Due. After the Minimum Payment Due has been paid, we will apply your payments first to any
balance subject to the highest interest rate, then to balances subject to lower interest rates. If you do not pay your
balance in full each month, you may not be able to avoid interest charges on new purchases.

Credit Balance
You may request a refund of any credit balance. If you do not request a refund, we will apply any credit balance to new
charges on your Account. If a credit balance remains on your account for 6 months and the amount is $1 or more, we
will automatically refund it to you.

Miscellaneous Fees
https://www.besteggcard.com/terms-and-conditions/

8/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

You may be charged for the expedited mailing or replacement of your Card. These fees will be disclosed to you at the
time of the request.

Foreign Transactions
Any transaction (1) made in a foreign currency, or (2) made in U.S. dollars if the transaction is made or processed outside
of the United States. Foreign Transactions include, for example, online transactions made in the U.S., but with a
merchant who processes the transaction in a foreign country. If a transaction is in a foreign currency, Visa International
will convert the transaction into U.S. dollars using their own currency conversion procedures, and then will send us the
transaction amount. The exchange rate will be determined using either the range of rates available in the wholesale
currency markets for the processing date (which may be different from the rate the card association receives) or a
government-mandated rate in effect on that date. The exchange rate used by Visa may differ from the rate on the date
of your transaction. In the case of returned or exchanged merchandise that was purchased in a foreign currency, the
exchange rate is determined on the date of the return.

INTEREST CHARGES
How We Calculate Average Daily Balance (including new transactions)
We calculate interest charges each billing period by applying the periodic rate(s) to the “average daily balance(s)” for your
Account. To get the average daily balance for your Account, we take the sum of the beginning balances for each
Transaction Category (standard Purchases, standard Cash Advances, and different promotional balances), less any
payments or credits, plus any new transactions. The daily balances for each Transaction Category are then added
together to determine the aggregate, or sum for the cycle. The aggregate is then divided by the number of days in the
billing cycle to determine the average daily balance (ADB).

How We Calculate Total Interest Charges
Each daily balance may have a different APR. Certain categories of Transactions in a daily balance may have multiple
APRs We multiply the daily balance for each Transaction Category by its daily periodic rate (DPR) multiplied by the

https://www.besteggcard.com/terms-and-conditions/

9/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

APRs. We multiply the daily balance for each Transaction Category by its daily periodic rate (DPR) multiplied by the
number of days the DPR was in effect. This gives us the interest charges for each Transaction Category. To get a DPR, we
divide the annual percentage rate (APR) that applies to the Transaction Category by 365 (or 366 in leap years). We add up
all the daily interest charges. The sum is the total interest charge for the billing period.

Paying Interest
The Grace Period is defined as the interval between the end of a billing cycle and the payment due date. No interest is
assessed during this interval if a customer pays the balance in full on or before the payment due date and is not carrying
a balance from month to month and has no cash advances outstanding. Except during the Grace Period, we begin to
impose interest charges on a transaction, fee, or interest charge from the day we add it to the daily balance. We
continue to impose interest charges until you pay the total amount you owe us. You can avoid paying interest on
Purchases during the Grace Period, as described below. However, you cannot avoid paying interest on Cash Advances.

Grace Period on Purchases
If you paid the New Balance on your previous billing statement by the Payment Due Date shown on that billing
statement, we will not impose interest charges on new Purchases, or any portion of a new Purchase, paid by the
Payment Due Date on your current billing statement. New Purchases are Purchases that first appear on the current
billing statement. If you do not pay your New Balance in full each month, then, depending on the balance to which we
apply your payment, you may not get a Grace Period on new Purchases. Cash Advances do not have a Grace Period.

DEFAULT, CLOSING OR SUSPENDING YOUR ACCOUNT
Default
We may consider your Account to be in default and require immediate payment of your total Account balance, to the
extent allowed by law, if any of the following occur if: (1) You fail to comply with the terms of this Agreement or any
agreement with us or an Affiliate, including failing to make a required payment when due, exceeding your Account credit
line or using your Card or Account for an illegal transaction; (2) you give us false information; (3) you file for bankruptcy
or some other insolvency proceeding is filed by or against you; (4) you become incapacitated or die; or (5) we believe you

https://www.besteggcard.com/terms-and-conditions/

10/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

or some other insolvency proceeding is filed by or against you; (4) you become incapacitated or die; or (5) we believe you
are unable or unwilling to pay your debts when due.

Closing or Suspending Your Account
We may close or suspend your Account if any of the events listed above occur, or for any reason, or for no reason. We
may do this at any time, without notifying you, as allowed by law. We may cancel your current Card and issue you a
substitute Card at any time. You may also close your Account at any time by notifying us by telephone or in writing. If we
close or suspend your Account, or if you close your Account, you must pay us all amounts you owe on the Account, even
if they post to your Account after it’s closed or suspended.

OTHER IMPORTANT INFORMATION
Military Lending Act Notice
Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in
connection with the credit transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card
account). For more information regarding your rights under the Military Lending Act, please call 833-629-1363. If you are
a Covered Borrower, the Arbitration Agreement will not apply to you in connection with this Account.

Communications
You agree that we may contact you using any technology and methods of our choice. This includes using an automated
telephone dialing system or other similar system to contact you by email, text message, device-level notification, or other
electronic notification method supported by the software you use to access your Account. We may use any telephone
numbers (including wireless, landline and voice over IP numbers), email addresses or billing address that you give to us.
Y
d
d d
https://www.besteggcard.com/terms-and-conditions/

h

ih

l

h

il

li

d h

11/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

You understand and agree that anyone with access to your telephone or email account may listen to or read the
messages that we leave or send you. You agree that we will not be liable for any charges that you incur in connection
with emails, text messages, device level notifications or other communications that we or our agents and
representatives send to you. You agree to notify us immediately if you change telephone numbers or are no longer the
subscriber or usual user of a telephone number that you give to us. You agree that we may monitor, record, retain and
reproduce your telephone calls and other communications with us. At any time, you can withdraw your consent to
receive text messages through a telephone network (e.g., SMS) or to receive calls through a telephone network. To
revoke your consent, you must contact us in accordance with this Agreement.

Privacy Policy
We send you our Privacy Policy when you open your Account and annually. Contact us at 833-707-1226 if you would like
a copy. Please read it carefully. It summarizes the personal information we collect, how we safeguard its confidentiality
and security, when it may be shared with others; and how you can limit our sharing of this information.

Assignment
We may sell, transfer, or assign any or all our rights and obligations under this Agreement to a third party. You may not
sell, transfer, or assign your Account or any of your obligations under this Agreement.

Governing Law
Federal law and the law of South Dakota govern the terms and enforcement of this Agreement.

Enforcement
We may enforce the terms of this agreement at any time. We may choose to delay enforcing or to not exercise rights
under this Agreement. If we do this, we do not waive our rights to exercise or enforce them on any other occasion. If any
provision of this Agreement is found to be unenforceable, all other provisions of the Agreement will remain in effect.

Collection Costs
To the extent allowed by law, you are liable to us for our legal costs if we refer collection of your Account to a lawyer who
https://www.besteggcard.com/terms-and-conditions/

12/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

is not our salaried employee. These costs may include reasonable attorneys’ fees, as well as costs and expenses of any
legal action.

Unforeseen Circumstances
From time to time, our services might be unavailable due to circumstances beyond our control (such as fires, floods,
natural disasters, system failures, epidemics/pandemics, or other unpredictable events). When this happens, you might
not be able to use your Card or obtain information about your Account. We are not responsible or liable if this happens.

Lost or Stolen Cards
You must try to prevent the unauthorized use of your Account and any Card, including your Account number. You must
call us if any Card is lost or stolen. Also, you must call us if you think someone has used or may use these items without
permission.

Headings
The headings in this Agreement are included as a matter of convenience and do not define, limit, or enlarge the scope of
this Agreement or any of its provisions.

YOUR BILLING RIGHTS – KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, or if you need more information about a transaction on your bill, write
to us as soon as possible at:
Best Egg Credit Card
PO Box 7606
https://www.besteggcard.com/terms-and-conditions/

13/23

9/10/2021

O o

606

Terms and Conditions – Best Egg Credit Card

Philadelphia, PA 19101
You may also email us at: cardservicing@bestegg.com.
You must notify us of any potential errors in writing by mail or electronically. You may also call us, but doing so may not
preserve your billing error rights. In your letter, give us the following information:
Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount
you think is wrong.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on that amount.
https://www.besteggcard.com/terms-and-conditions/

14/23

y

9/10/2021

q

,

p

y

q

Terms and Conditions – Best Egg Credit Card

The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question, or any interest or other fees related to that
amount.

If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe, and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your
bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you purchased with your credit card, and you tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
https://www.besteggcard.com/terms-and-conditions/

15/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM do not
qualify.
3. You must not yet have fully paid for the purchase.
If all the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Best Egg Credit Card
P.O. Box 84067
Columbus, GA 31908
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.

ARBITRATION AGREEMENT
If you are a Covered Borrower, as defined by the Military Lending Act, the arbitration provisions set forth in this section do not
apply to you.
PLEASE READ THIS AGREEMENT CAREFULLY. MOST CUSTOMER CONCERNS CAN BE RESOLVED BY CALLING CUSTOMER
SERVICE AT THE NUMBER LISTED ON THE BACK OF YOUR CARD. IN THE EVENT CUSTOMER SERVICE IS UNABLE TO
RESOLVE A COMPLAINT TO YOUR SATISFACTION, THIS SECTION EXPLAINS HOW CLAIMS CAN BE RESOLVED THROUGH
BINDING ARBITRATION. ARBITRATION REPLACES THE RIGHT TO GO TO COURT, HAVE A JURY TRIAL OR
INITIATE OR PARTICIPATE IN A CLASS ACTION. IN ARBITRATION, DISPUTES ARE RESOLVED
BY AN ARBITRATOR, NOT A JUDGE OR JURY. IF ARBITRATION IS CHOSEN BY ANY PARTY, NEITHER YOU NOR WE WILL
HAVE THE RIGHT TO LITIGATE THAT CLAIM IN COURT OR HAVE A JURY TRIAL ON THAT CLAIM. FURTHER, YOU AND WE
WILL NOT HAVE THE RIGHT TO PARTICIPATE IN A REPRESENTATIVE CAPACITY OR AS A MEMBER OF ANY CLASS
PERTAINING TO ANY CLAIM SUBJECT TO ARBITRATION.
https://www.besteggcard.com/terms-and-conditions/

16/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

ARBITRATION PROCEDURES ARE SIMPLER AND MORE LIMITED THAN IN COURT. THE ARBITRATOR’S AUTHORITY IS
LIMITED TO CLAIMS BETWEEN YOU AND US ALONE. CLAIMS MAY NOT BE JOINED OR CONSOLIDATED UNLESS YOU AND
WE AGREE IN WRITING. AN ARBITRATION AWARD AND ANY JUDGMENT CONFIRMING IT WILL APPLY ONLY TO THE
SPECIFIC CASE AND CANNOT BE USED IN ANY OTHER CASE EXCEPT TO ENFORCE THE AWARD. THE ARBITRATOR’S
DECISIONS ARE AS ENFORCEABLE AS ANY COURT ORDER AND ARE SUBJECT TO VERY LIMITED REVIEW BY A COURT.
EXCEPT AS SET FORTH BELOW, THE ARBITRATOR’S DECISION WILL BE FINAL AND BINDING. OTHER RIGHTS YOU OR WE
WOULD HAVE IN COURT MAY ALSO NOT BE AVAILABLE IN ARBITRATION. YOU HAVE THE RIGHT TO CANCEL OR OPT OUT
OF THIS ARBITRATION AGREEMENT AS SET FORTH BELOW.

Binding Arbitration
This Arbitration Agreement is made pursuant to a transaction involving interstate commerce, and shall be governed by
and be enforceable under the Federal Arbitration Act (FAA), 9 U.S.C. § 1-16, as it may be amended. This Arbitration
Agreement sets forth the circumstances and procedures under which Claims (as defined below) may be resolved by
arbitration instead of being litigated in court.

Covered Parties
Solely for purposes of this Arbitration Agreement,we, us, and our, including in addition to the meanings set forth in this
Cardmember Agreement, includes any corporate parents, subsidiaries, affiliates, licensees, predecessors, successors,
assigns, any purchaser of your Account, and all of their officers, directors, employees, agents, and assigns or any and all
of them. Additionally,we, us, and our shall include any third party providing benefits, services, or products in connection
with the Account (including but not limited to credit bureaus, merchants that accept any credit device issued under the
Account, rewards programs, and enrollment services, credit insurance companies, debt collectors, and all of their
officers, directors, employees, agents and representatives) if, and only if, such a third party is named by you as a codefendant in any Claim you assert against us.

Covered Claims
Either you or we may, without the other’s consent, elect mandatory, binding arbitration of any past, current or future
https://www.besteggcard.com/terms-and-conditions/

17/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

claim, dispute, or controversy, by either you or us against the other, or against the employees, parents subsidiaries,
affiliates, beneficiaries, agents or assigns of the other, arising from or relating in any way to the Cardmember
Agreement, any prior Cardmember Agreement, your credit card Account or the advertising, application or approval of
your Account (Claim). This Arbitration Agreement governs all Claims, whether such Claims are based on law, statute,
contract, regulation, ordinance, tort, common law, constitutional provision, or any legal theory of law, such as respondeat
superior or any other legal or equitable ground and whether such Claims seek as remedies, money damages, penalties,
injunctions, or declaratory or equitable relief. Claims subject to this Arbitration Agreement include Claims regarding the
applicability of this Arbitration Agreement or the validity of the entire Cardmember Agreement or any prior Cardmember
Agreement. Claims subject to arbitration include Claims that are made as counterclaims, cross claims, third party claims,
interpleaders or otherwise, and a party who initiates a proceeding in court may elect arbitration with respect to any such
Claims advanced in the lawsuit by any party or parties. As used in this Arbitration Agreement, the term Claim is to be
given the broadest possible meaning. You may not sell, assign, or transfer a Claim.

Class Action Waiver:
If a party elects to arbitrate a Claim, the arbitration will be conducted as an individual action. There will be no right
or authority for any claims to be arbitrated on a class action basis or on bases involving claims brought in a
purported representative capacity on behalf of the general public, other cardmembers or other persons similarly
situated. This means that even if a class action lawsuit or other representative action, such as that in the form of a
private attorney general action, is filed, any Claim between us related to the issues raised in such lawsuits will be subject
to an individual arbitration claim if either you or we so elect. No arbitration will be consolidated with any other
arbitration proceeding without the consent of all parties. The only Claims that may be joined in an individual action
under this Arbitration Agreement are: (1) those brought by us against you and any co-applicant, joint cardmember, or
authorized user of your Account, or your heirs or your trustee in bankruptcy; or (2) those brought by you and any coapplicant, authorized user of your Account, or your heirs or your trustee in bankruptcy against us.

Small Claims Court
Individual Claims filed in a small claims court are not subject to arbitration if the matter stays in small claims court.
However, if such a claim is transferred, removed, or appealed to a different court, we may then choose to arbitrate. You
or we may otherwise elect to arbitrate any claim at any time unless a trial has begun or final judgment has been

https://www.besteggcard.com/terms-and-conditions/

18/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

or we may otherwise elect to arbitrate any claim at any time unless a trial has begun, or final judgment has been
entered.

Initiating Arbitration
Failure or any delay in enforcing this Arbitration Agreement at any time, or in connection with any particular Claims, will
not constitute a waiver of any rights to require arbitration at a later time or in connection with any other Claims. To
choose arbitration, a party may file a motion to compel arbitration in a pending matter and/or commence arbitration by
submitting the required forms and requisite filing fees to the American Arbitration Association (AAA). AAA is independent
from us. You or we may choose to have a hearing, appear at any hearing by phone or other electronic means, and/or be
represented by counsel. Any in-person hearing will be held in the same city as the U.S. District Court closest to your
billing address, or at some other place to which you and we agree in writing. You may obtain more information and
applicable AAA forms at www.adr.org.

Arbitration Procedure
A single, neutral arbitrator will resolve Claims. The arbitration will be conducted under the applicable AAA procedures
and rules in effect on the date the arbitration is filed unless those procedures and rules are inconsistent with this
Arbitration Agreement, in which case this Agreement will prevail. These procedures and rules may limit the amount of
discovery available to you or us. The arbitrator will apply applicable substantive law consistent with the FAA and
applicable statutes of limitations, and will honor claims of privilege recognized at law. The arbitrator will not apply any
federal or state rules of civil procedure or evidence in matters relating to evidence or discovery. The arbitrator will take
reasonable steps to protect customer Account information and other confidential information, including the use of
protective orders to prohibit disclosure outside the arbitration, if requested to do so by you or us. The arbitrator will
have the power to award to a party any damages or other relief provided for under applicable law, and will not have the
power to award relief to, against, or for the benefit of any person who is not a party to the proceeding. If the law
authorizes such relief, the arbitrator may award punitive damages or attorney fees. The arbitrator will make any award
in writing, but need not provide a statement of reasons unless requested by a party. You and we agree that the
arbitration will be confidential. You and we agree that we will not disclose the content of the arbitration proceeding or its
outcome to anyone, but you or we may notify any government authority of the claim as permitted or required by law.

F

dC

https://www.besteggcard.com/terms-and-conditions/

19/23

9/10/2021

Fees and Costs

Terms and Conditions – Best Egg Credit Card

You will be responsible for paying your share of any arbitration fees (including filing, administrative, hearing or other
fees), but only up to the amount of the filing fees you would have incurred if you had brought a claim in court. We will be
responsible for any additional arbitration fees upon receipt of proof of payment. At your written request, we will
consider in good faith making a temporary advance of your share of any arbitration fees, or paying for the reasonable
fees of an expert appointed by the arbitrator for good cause. All other fees will be allocated in keeping with AAA rules
and applicable law. However, we will advance or reimburse filing fees and other fees if AAA or arbitrator determines
there is good reason for requiring us to do so or you ask us and we determine there is good cause for doing so. Each
party will bear the expense of its own legal fees and costs, regardless of which party prevails, for arbitration and any
appeal (as permitted below), except that the arbitrator shall apply any applicable law in determining whether a party
should recover any or all fees and costs from another party.

Finality and Appeals
Any decision rendered in such arbitration proceeding will be final and binding on the parties unless a party appeals in
writing to the arbitration administrator within 30 days of issuance of the award. The appeal must request a new
arbitration before a panel of 3 neutral arbitrators designated by AAA. The panel will consider all factual and legal issues
anew, follow the same rules that apply to a proceeding using a single arbitrator, and make decisions based on a majority
vote. Each party will bear their own fees, costs, and expenses for any appeal, but a party may recover any or all fees,
costs, and expenses from another party, if the majority of the panel of arbitrators, applying applicable law, so
determines. An award by a panel on appeal is final. A final award will be enforceable as provided by the FAA or other
applicable law by any court having jurisdiction.

Survival and Severability of Terms
This Arbitration Agreement shall survive: (1) termination or changes in the Cardmember Agreement, the Account and the
relationship between you and us concerning the Account, such as the issuing of a new account number or the
transferring of the balance in the Account to another account; (2) the bankruptcy of any party or any legal proceeding
initiated by you or on your behalf; (3) voluntary payment of the debt in full by you or by a third party; and (4) any sale of
your Account (in the case of a sale its terms will apply to the buyer of your Account) If any portion of this Arbitration

https://www.besteggcard.com/terms-and-conditions/

20/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

your Account (in the case of a sale, its terms will apply to the buyer of your Account). If any portion of this Arbitration
Agreement is deemed invalid or unenforceable, the remaining portions shall nevertheless remain in force.

Your Right to Reject Arbitration
You may reject this Arbitration Agreement by sending a written rejection notice to us at: Best Egg Credit Card, PO Box
7606, Philadelphia, PA 19101. Your rejection notice must be mailed within 45 days of Account opening. Your rejection
notice must state that you reject this Arbitration Agreement and include your name, address, Account number and
personal signature. No one else may sign the rejection notice. If your rejection notice complies with these requirements,
this Arbitration Agreement and any other arbitration provisions in the Cardmember Agreements will not apply to you,
except for any claims subject to pending litigation or arbitration at the time you send your rejection notice. Rejection of
this Arbitration Agreement will not affect your other rights or responsibilities under this section or the Agreement,
including use of the Account.

Mobile Communications
By participating in the Best Egg Credit Card Fraud Notification program, you may receive fraud notifications. All
messages are free. You may opt out at any time by texting STOP to Short Code (54759). By sending STOP to Short Code
(54759), you agree to one additional confirmation message stating that you’ve opted out and will no longer receive
messages from Best Egg Credit Card. To get help, text HELP to Short Code (54759). Get additional support or help by
calling 833-707-1226. You must be the mobile phone account holder or have permission from the account holder to use
this service. You must be 18 years or older or have permission from a parent/guardian. By participating in this program,
you specifically authorize Best Egg Credit Card to send communications using an automatic telephone dialing system or
an artificial or prerecorded voice system. You are not required to sign the agreement as a condition of purchasing any
property, goods or services. The person consenting to receive telemarketing communications also provides
authorization for the specific telephone number that may be contacted via this program. Carriers are not responsible for
any delayed or undelivered messages. Messages may be delayed or not delivered due to factors outside of the carrier’s
control.

PARTICIPATING WIRELESS CARRIERS
AT&T Boost Mobile MetroPCS Sprint T-Mobile Verizon Wireless Virgin Mobile USA

https://www.besteggcard.com/terms-and-conditions/

21/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

AT&T, Boost Mobile, MetroPCS, Sprint, T Mobile, Verizon Wireless, Virgin Mobile USA.
©

2020 Marlette Servicing, LLC. All rights reserved.

Hey there, curious! This is a BETA product, please be patient with us as we design and develop this product to grow
with you. Share your feedback with us anytime by dropping a note at cardservicing@bestegg.com

THE CARD
Card Features
FAQs

THE CARD
Card Features
FAQs

ABOUT US
Meet the Team
Marlette Funding, LLC

LEGAL
Privacy Statement
Privacy Policy
Terms of Use
Terms and Conditions
Licenses
Accessibility
https://www.besteggcard.com/terms-and-conditions/

22/23

9/10/2021

Terms and Conditions – Best Egg Credit Card

CUSTOMER CARE
Customer Care
24/7 Customer Service:
833-707-1226
Report an issue:
cardservicing@bestegg.com

CONNECT WITH US

   
3419 Silverside Road
Wilmington, DE 19810

This card is issued by First Bank & Trust, Brookings SD pursuant to a license by Visa International. The card is being marketed to you pursuant to a joint marketing agreement
between First Bank & Trust and Cross River Bank. Visa is a registered trademark, and the Visa logo design is a trademark of Visa International Incorporated.
Accepting a Best Egg Credit Card after your application is approved will result in a hard inquiry, which may impact your credit score.
To help the government fight the funding of terrorism and money laundering activities, Federal law requires all financial institutions to obtain, verify, and record information
that identifies each person who opens an account. What this means for you: When you open an account, we will ask for your name, address, date of birth, and other
information that will allow us to identify you. We may also ask to see your drivers license or other identifying documents.
Marlette Funding, LLC is the parent company to the following subsidiaries: Marlette Servicing, LLC and Marlette Marketing, LLC.
© 2021 Marlette Funding, LLC. All rights reserved.

https://www.besteggcard.com/terms-and-conditions/

23/23

